OIG Audit Report GR-30-07-004

Office for Victims of Crime, Victims of Exploitation and Trafficking Assistance Grant to Boat People S.O.S., Inc., Falls Church, Virginia

Audit Report GR-30-07-004


July 2007
Office of the Inspector General


Executive Summary


 The Department of Justice (DOJ) defines human trafficking as a form of “modern-day slavery.” According to DOJ, trafficking victims are predominantly women and children who are lured into prostitution, domestic servitude, or other forms of exploitative labor in the United States by traffickers who promise the victims a better life. 
 In 2000, Congress enacted the Trafficking Victims Protection Act, which authorized the provision of a number of benefits and services now available to trafficking victims. Under this legislation, the Office of Justice Program’s (OJP) Office for Victims of Crime (OVC) awards funds to support victim services for non-citizens trafficked in the United States who require emergency services. These services may include shelter, case management, interpretation, medical care, dental care, crisis counseling, legal or immigration assistance, criminal justice system advocacy, job training, and transportation. In Fiscal Year 2003, OVC began awarding grants under the Services for Human Trafficking Victims Discretionary Grant Program. 
 The Office of the Inspector General has completed an audit of grant number 2003-VT-BX-K009, awarded to Boat People S.O.S. (BPSOS). The BPSOS is a non-profit organization based in Falls Church, Virginia, that provides legal and social services for human trafficking victims. The BPSOS, and its sub-grantee, Ayuda Inc., of Washington, D.C., were awarded a total of $1,896,535 in January 2003. The purpose of the three-year grant was to develop, expand, and strengthen victim services during the precertification period for persons who have been identified as victims of severe forms of human trafficking.1  The grantee received a one-year, no cost, extension until December 31, 2006. 
 We conducted our audit to determine whether costs claimed under the grant were allowable, supported, and in accordance with applicable laws, regulations, guidelines, and terms and conditions of the grant. Additionally, we measured BPSOS’s performance against pre-determined benchmarks. 
 Our audit found that BPSOS and Ayuda charged to the grant over $700,000 in either unsupported or unallowable costs: 

 BPSOS and Ayuda claimed $90,296 of expenditures for items that were not approved in the final budget. These expenditures included miscellaneous expenses, advertising, software, work study stipend, emergency assistance, and office insurance. 
 In testing both BPSOS and Ayuda fringe benefit costs, we noted numerous calculation errors. Because of these errors and lack of supporting documentation, we could not ensure that the fringe benefits costs charged to the grant were accurate. Therefore, we determined $77,588 and $36,272 of BPSOS and Ayuda fringe benefit costs were unsupported. 
 BPSOS’s method of allocating indirect costs to the grant resulted in the grantee claiming $152,583 in excess indirect costs. 
 The grantee provided inadequate supporting documentation for local match transactions, resulting in unsupported pro bono attorney fees of $294,575. 
 The grantee claimed over $57,000 in local matching funds that were not approved by OJP. 

 Additionally, we determined that BPSOS did not accomplish many of the grant objectives. Our report contains 22 recommendations to address the preceding issues. We discussed the results of our audit with BPSOS officials and have included their comments in the report as applicable. 



Footnotes

A pre-certified victim is an individual who has not been officially declared a trafficking victim by the Department of Health and Human Services’ Office of Refugee Resettlement.








Return to OIG Home Page